Semiannual Report to Congress - April 1, 2001 through September 30, 2001
Semiannual Report to Congress
April 1, 2001 through September 30, 2001
Inspector General Letter
Agency Profile
Office of Inspector General
Audit Program
Investigations Program
Legislation, Regulations, and Policy
Liaison Activities
Information Required by the Act
Audit Reports by Subject Matter
Reports with Questioned Costs
Reports with Recommendations that Funds be put to Better Use
INSPECTOR GENERAL
NATIONAL LABOR RELATIONS BOARD
WASHINGTON, DC 20570
I hereby submit this Semiannual Report: April 1 - September 30, 2001, which summarizes the major activities and accomplishments of the Office of Inspector General (OIG) of the National Labor Relations Board (Agency). The submission of this report is in accordance with the Inspector General Act of 1978, as amended (IG Act). Section 5 of the IG Act requires that the Chairman transmit this report to the appropriate committees or subcommittees of the Congress within 30 days of its receipt.
OIG issued two audit reports and three inspection reports. In the investigations program, OIG processed 165 contacts, initiated 4 cases, and closed 10 cases. The investigations resulted in one conviction and two personnel actions this period. We reviewed four bills, one regulation, and four policy documents. Details on these accomplishments can be found in the body of this report.
The tragic events of September 11, 2001, were devastating to all Americans. We mourned with those who had suffered a loss and desired to participate in the efforts to pursue those responsible for this evil. The inspector general community responded to requests for investigative personnel to assist in interviewing, analysis, and evidence recovery concerning the terrorist attack. We are also reviewing our priorities and anticipated projects given the change in national focus and are preparing for new initiatives or requests that might come from Congress or the Administration.
The OIG also suffered when Joseph Young died of cancer on September 21, 2001. After working at the National Aeronautics and Space Administration for 6 years, Joe joined the Agency as an auditor in the Division of Administration, Management and Audit Branch and later in the Security and Audit Branch. In November 1989, he became part of the newly established OIG. Joe was a valued employee of this office and will be missed.
I appreciate the support of all Agency employees in achieving the accomplishments set forth in this report.
Jane E. Altenhofen
October 31, 2001
AGENCY PROFILE
The National Labor Relations Board (NLRB or Agency) is an independent Federal agency established in 1935 to administer the National Labor Relations Act (NLRA). The NLRA is the principal labor relations law of the United States, and its provisions generally apply to private sector enterprises engaged in, or to activities affecting, interstate commerce. NLRB jurisdiction includes the U.S. Postal Service (other government entities, railroads, and airlines are not within NLRB's jurisdiction.)
The NLRB seeks to serve the public interest by reducing interruptions in commerce caused by industrial strife. It does this by providing orderly processes for protecting and implementing the respective rights of employees, employers, and unions in their relations with one another. The NLRB has two principal functions: (1) to determine and implement, through secret ballot elections, the free democratic choice by employees as to whether they wish to be represented by a union in dealing with their employers and, if so, by which union; and (2) to prevent and remedy unlawful acts, called unfair fair labor practices, by either employers, unions, or both.
NLRB authority is divided by law and delegation. The five-member Board primarily acts as a quasi-judicial body in deciding cases on formal records. The General Counsel investigates and prosecutes unfair labor practices before administrative law judges, whose
decisions may be appealed to the Board; and, on behalf of the Board, conducts secret ballot elections to determine whether employees wish to be represented by a union.
The Board consists of the Chairman and four members who are appointed by the President with the advice and consent of the Senate. Board Members serve staggered terms of five years each. The General Counsel is also appointed by the President with the advice and consent of the Senate and serves a four-year term.
On May 16, 2001, President Bush appointed Peter J. Hurtgen to serve as Chairman, replacing John C. Truesdale, who continued to serve as Board Member until October 1, 2001. Mr. Hurtgen had served as a Board Member since November 1997, in a term that expired on August 27, 2001. On
August 31, 2001, the President announced the recess appointment of Mr. Hurtgen as NLRB Chairman.
No changes occurred in three seats during this period. Dennis P. Walsh received a recess appointment on December 29, 2000, to serve as a Board Member and is currently filling this position. Wilma B. Liebman, whose term expires in December 2002, continues to serve as Board Member. A fifth Board Member seat, which has been vacant since August 2000, remains unfilled.
Former General Counsel Leonard R. Page left office on April 20, 2001, after the Senate declined to act on former President Clinton's nomination. Mr. Page received a recess appointment in November 1999 and was named Acting General Counsel in December 2000, serving almost 17 months in office.
The Senate unanimously confirmed President Bush's nomination of Arthur F. Rosenfeld, to serve a four-year term as General Counsel on May 26, 2001.
NLRB received an appropriation of $216,438,000 for Fiscal Year (FY) 2001, to fund 2,002 full-time equivalents. NLRB Headquarters is at 1099 14th Street, NW, Washington, DC.
In addition to the Headquarters building, employees are located in 51 field offices throughout the country. Three satellite offices for the Administrative Law Judges are located in Atlanta, San Francisco, and New York. As of October 2, 2000, field offices included 32 Regional Offices, 16 Resident Offices, and 3 Subregional Offices.
Additional information about NLRB can be found on the Web site www.NLRB.gov.
OFFICE OF INSPECTOR GENERAL
The NLRB established the Office of Inspector General (OIG) pursuant to the 1988 amendments to the Inspector General Act of 1978 (IG Act).
Resources
The FY 2001 OIG budget was $804,500 for operations, of which $67,000 was for contract services. In addition to the Inspector General, the OIG consists of a Counsel/Assistant Inspector General for Investigations, Assistant Inspector General for Audits, Special Agent, two Auditors, and a Staff Assistant.
Jennifer S. Kovachich, Special Counsel to the General Counsel, completed a detail to the OIG on April 30, 2001.
Francis A. Searle, Special Agent, received a disability retirement effective June 11, 2001.
Michael Gibson, a law student at American University School of Law, began serving in the capacity of a Student Assistant in the OIG, on May 20, 2001.
In August 2001, the OIG hosted a student volunteer for one week. This Government-wide program was designed to give participating agencies the opportunity to promote public service careers and to better prepare students for eventual entry into the workplace. The student assigned to OIG provided assistance in conducting an inspection of combination door locks discussed on page 7 of this report.
AUDIT PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and coordinate audits relating to program operations of the Agency. OIG issued two audit reports and three inspection reports.
Reports Issued
We issued Audit Report OIG-AMR-33-01-02, Audit of Case Activity Tracking System (CATS) Security on August 1, 2001. This audit was conducted to determine whether CATS was adequately safeguarded in field offices and whether policies and procedures provided reasonable assurance regarding:
- Security program planning and management,
- Access controls,
- Application program change controls,
- Segregation of duties,
- Operating system security, and
- Service continuity.
When evaluated against the Federal Information Technology Security Assessment Framework, NLRB's security was not rated as a Level 1, the lowest rating. Further, NLRB had not implemented a majority of the recommendations contained in the OIG Review of Information Systems Security (OIG-AMR-30-00-03), issued on September 29, 2000. We found that: a CATS security program and plan was not in place to manage and address security risks; access controls to CATS and to its network did not comply with Office of Management and Budget (OMB) Circular A-130 and Internal Control Standards for general and application controls; the Information Technology Branch (ITB) did not provide network system administrators with adequate guidance and training to restrict access to system administration tools; and field offices were improperly storing backup tapes within offices rather than offsite.
ITB agreed with the findings and recommendations. On October 1, 2001, OIG concurred with an action plan. Corrective actions are scheduled to be completed by July 8, 2002.
This audit fulfilled the requirement in the Government Information Security Reform Act for inspectors general to conduct annual reviews of information security programs. The Inspector General and Chief Information Officer (CIO) also responded to questions posed by OMB on information security. The Chairman submitted the two responses, OIG program review, and independent evaluations to OMB on September 10, 2001.
We issued Audit Report OIG-AMR-32-01-03, Audit of Property Controls Over ADP Items, on September 27, 2001. This review was conducted to determine whether there were controls in place to safeguard automated data processing (ADP) items. The Agency spends approximately $3 million annually on ADP equipment.
Neither of the Agency's two property management systems met all 12 mandatory general requirements for property management systems. The Asset Management Database (AMD) monitors non-capitalized ADP equipment and the Property Management Information System (PMIS) tracks capitalized equipment.
The AMD contained a significant number of discrepancies for equipment at Headquarters and in Regional Offices visited. Discrepancies included missing bar codes, incorrect model numbers, incorrect serial numbers, and incorrect locations. We were, however, able to locate all equipment at Headquarters and most equipment in the Regional Offices.
Items in the PMIS report were missing many data elements necessary to track capitalized ADP items. These items include the serial numbers, descriptions, and equipment location. Also we were unable to visually verify most equipment in the report because serial numbers and bar codes were not located on the outside of equipment and descriptions were general and did not include specific identifying information such as manufacturer names and model numbers.
Surplus property practices observed increase the likelihood that equipment can be converted for personal gain without detection, and neither property management system met requirements for property management throughout the entire asset life cycle.
The CIO responded that a fully automated, life cycle system is preferable, and he hopes that at some point technical and funding priorities will allow ITB to pursue it. The NLRB intends to comply with all directions, but the information technology priority sequence and resources available (including funds, personnel, and time) are determined by the Agency's mission priorities and overall Agency needs.
The PMIS is currently in the process of being converted to an electronic acquisition system that will generate the required data for tracking capitalized items and will conform with Federal reporting requirements. Once conversion to the new system is accomplished, the appropriate verification will be included through the reporting process that single items have been integrated into a system configuration, and individual ADP items will be readily recognized.
We issued Inspection Report OIG-INS-18-01-01: Review of Bar Status, on August 10, 2001. The primary purpose of this inspection was to determine whether Agency attorneys were authorized to practice law as required by Office of Personnel Management guidelines. We found all but 11 of the Agency's 799 attorneys were authorized to practice law.
Eight of those attorneys not authorized to practice law became authorized as of the date of this report. The Agency is working with the remaining three attorneys to ensure that they become authorized to practice law. The Division of Operations-Management (O-M) is considering adopting procedures to monitor the bar status of field attorneys on a regular basis and will consult with other Division heads in that process.
We issued Inspection Report OIG-INS-19-01-02: Combination Door Lock Inspection, on August 24, 2001. This inspection was conducted to evaluate whether office, restroom, and stairwell door locks that require a combination to unlock functioned properly.
Four office doors, nearly half of the restroom doors, and one stairwell door did not function properly. We also found that stairwell doors were propped open, which was attributed by the Security Branch Chief to be for ease of access.
We suggested that officials take appropriate steps to fix the locks that were not operating correctly or change the lock plan. The Director of Administration stated all deficiencies noted were immediately corrected.
We issued Inspection Report OIG-INS-16-01-03: Review of the Data Accuracy of the Fiscal Year 1999 NLRB Annual Report, on September 25, 2001. The objective of this review was to determine whether the National Labor Relations Board Annual Report for Fiscal Year 1999 accurately presented the Agency's accomplishments. We reviewed both unfair labor practice cases (C-Cases) and representation cases (R-Cases).
We found that the number of cases received, cases closed, and cases pending reported in Table 1 of the Annual Report were in significant disagreement with the databases upon which the Annual Report was compiled. The Executive Secretary System was generally accurate, but we found errors relating to the originating document date for C-Cases and that the policy for recording information for certain R-Cases does not reflect the total time the case was at the Board. The Casehandling Information Processing System (CHIPS), that was used to compile Regional Office casehandling statistics, also contained errors.
The FY 2000 Annual Report, which is not yet ready to be published, will be primarily compiled on data in CATS instead of CHIPS. According to O-M, all pending cases in CHIPS were transferred to CATS. As part of the data verification process, cases that should have been closed before FY 2000 were deleted from CATS and the data was entered into CHIPS. Therefore, the pending case statistics from September 30, 1999, will be inconsistent with the October 1, 1999 figures. O-M has not kept track of the number of cases deleted, so does not know if the number is significant. They intend to acknowledge that any differences in numbers between years is a result of converting to a new data system.
Audit Follow-up Review of Board Casehandling Timeliness, OIG-AMR-26-00-02, was issued on March 31, 2000. Two agreed upon actions remained to be implemented: 1) To revise Board policy to include current time standards for processing and to cancel unused policies designed to promote timeliness, and 2) Implement recommendations made by the Streamlining Committee. Management and the National Labor Relations Board Professional Association negotiated implementation details for these two recommendations in an agreement signed September 5, 2001. The report was closed on September 18, 2001.
Audit of Procurement of Court Reporting Services, OIG-AMR-31-01-01, was issued on March 12, 2001. The Divisions of Administration and O-M developed procedures for the Field Offices, including a checklist for reviewing transcripts and invoices for payments. Training was provided to all regional personnel. The report was closed on August 1, 2001.
Ongoing Reviews
As of September 30, 2001, the ongoing reviews were of the Alternative Workplace Program, Debt Collection, and Contract for Computer Services.
INVESTIGATIONS PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and coordinate investigations relating to the programs and operations of the Agency. OIG processed 165 contacts, initiated 4 cases, and closed 10 cases. The investigations resulted in one conviction and two personnel actions.
Case Workload   Contacts Processed
Open (4/01/2001)
12
Received
165
Initiated
4
Initiated Investigation
4
Closed
10
Opened Case -- Referred to Agency
0
Open (9/30/2001)
6
Non-Investigative Disposition
161
Contract Fraud. As previously reported, OIG received information from an employee in the NLRB Division of Administration that indicated that a government contractor might be overcharging the Agency for relocation expenses of an Agency employee. OIG determined that the billing documents submitted by a subcontractor were fraudulent. The prime contractor agreed to reduce the final billing from $13,000 to $4,000, a $9,000 saving to the Agency. Further investigation by the OIG determined that the subcontractor had defrauded other Government agencies using similar methods. A joint investigation with several other Federal inspectors general and the Federal Bureau of Investigation developed evidence indicating potential wide-ranging fraud in both Government and other private party moves. In August 1998, OIG referred this case to the U.S. Attorney for civil action. The U.S. Attorney referred the case to the Criminal Division of the Department of Justice (DOJ) in August 1999. During this reporting period, one of the subjects pled guilty to mail fraud in violation of 18 U.S.C. § 1341. (OIG-I-207)
Theft of Excess Government Computers. As previously reported, OIG received information alleging that several Headquarters employees stole excess computer equipment. The investigation substantiated that one employee stole an excess computer and monitor and that the Agency's Property Section did not properly document the distribution of the excess computer equipment. The theft and mismanagement occurred prior to the appointment of the current Chief, Procurement and Facilities Branch.
During this reporting period, DOJ declined prosecution. One subject served a 14-day suspension. The Agency counseled a second employee for providing false information to the OIG during this investigation. (OIG-I- 269)
Travel Voucher Fraud. As previously reported, OIG received information that an Agency attorney had filed an improper claim for lodging obtained from a family member. The investigation substantiated the allegation.
The attorney made full restitution of $5,311 for the false claim, and DOJ
agreed not to pursue criminal or civil prosecution, with the understanding that
administrative sanctions might be taken. During this reporting period, the Agency disciplined the attorney by imposing a 30-day suspension. (OIG-I-150)
Improper Release of Information. OIG received information alleging that a former Board Member improperly disclosed information pertaining to the Board's deliberations and votes. After consulting with DOJ and Office of Government Ethics, we determined that the former Board Member's conduct was not in violation of Federal law.
We did, however, find that his conduct was in violation of the Agency's rules pertaining to the release of information and was prejudicial to the administration of justice. This case was forwarded to the former Board Member's Bar association for review. The Bar association determined that the conduct was not in violation of its Rules of Professional Responsibility. (OIG-I-272)
Contractor Fraud. OIG received an allegation that the contractor providing computer Help Desk service for the Agency was forwarding problems to Agency personnel for resolution. After reviewing the contract and interviewing Agency and contractor personnel, it was apparent that the case involved the contractor's performance rather than misconduct. This case was closed as an investigation and forwarded to OIG auditors for review as part of an audit already in progress.
The investigator did notice, however, a very low participation rate in Help Desk user surveys that are used to determine the quality of service provided and payments made to the contractor. To increase participation in the survey, OIG assisted in drafting an article for the Agency's Information Technology News explaining the importance of completing the surveys. (OIG-I-282)
Partisan Politics. OIG received an allegation that a member of a Board Member's staff used official time and staff to engage in partisan activity to promote the nomination of a person to
fill a vacant Board Member position. The investigation found that the allegation was unsubstantiated.
The subject, at the request of a staff member for a Senate committee, prepared a document that provided background information about the Board cases following the Supreme Court decision in the case of Communications Workers v. Beck. The Agency does not have a policy on Congressional correspondence. OIG gathered data from other agencies and drafted a policy for consideration. (OIG-I-286)
Time and Attendance. OIG received an allegation that personnel in a Regional Office were engaging in fraud by indicating daily arrival times earlier than their actual time of arrival on the Region's time and attendance records, and taking lunch breaks of more than 1 hour, without requesting leave. Although the exact allegations were not substantiated, the investigation did disclose generalized time and attendance irregularities that included habitual tardiness, extended lunches not exceeding 1 hour, and an informal system of compensatory time. Regional management is in the process of taking corrective action. (OIG-I-287)
Misuse of Agency Computers.  OIG received an allegation that an employee used the Government computer assigned to his office to access the Internet via America Online. The allegation was based upon a report from the General Services Administration that one of the telephone lines in the Region was incurring an unusually high number of tolls.
A search of the subject's Internet history files corroborated his statement that his use of the Internet is within the Agency policy of de minimis use. The toll calls resulted from the Region's Internet configuration. This equipment was re-configured just prior to our investigation
to access the Internet via a local telephone number when that access became available. (OIG-I-288)
Hotline
Employees and members of the public with information on fraud, waste and abuse are encouraged to contact OIG. A log of calls to a nationwide toll free number or the office numbers and a log of mail and facsimile messages are maintained. All information received, regardless of the method used, is referred to as HOTLINE contacts.
The information received over the hotline is the basis for the initial review for potential investigations. The information is analyzed to determine if further inquiry is warranted. Most HOTLINE contacts are calls from members of the public seeking help on an employment related problem or issues outside OIG and/or Agency jurisdiction. As appropriate, OIG refers these callers to: the NLRB office; local, state, or Federal agency; or private resource to provide assistance.
During this reporting period, OIG received 165 hotline contacts, of which 62 were telephone calls and 103 were in writing. Four contacts resulted in OIG investigative cases.
LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations relating to programs and operations of the Agency and is to make recommendations concerning the impact of such legislation or regulations. Similarly, we review Agency and OIG policy. We reviewed four bills, one regulation, and four policy documents.
Legislation
We reviewed the following legislation.
H.R. 4, the SAFE Act of 2001. In addition to promoting energy conservation by the Federal Government, this Act would require that inspectors general conduct periodic reviews of their agency's compliance with part 3 of Title V of the National Energy Conservation Policy Act, 42 U.S.C. §§ 8251, et seq.
H.R. 44, a bill to amend the Inspector General Act of 1978. This legislation would prohibit the payment of cash bonuses or awards to an inspector general, require external reviews, amend reporting requirements, change several inspectors general from Level IV to Level III of the Executive Schedule, and require the Comptroller General to study and report on consolidation of inspector general offices.
H.R. 169, the Notification and Federal Employee Anti-discrimination and Retaliation Act of 2001, commonly referred to as the No FEAR Act. This Act provides that agencies notify employees of the rights and protections available to them under the anti-discrimination and whistleblower statutes in writing. Agencies must also post this information on their Internet Web sites. This Act also requires that agencies submit an annual report to Congress and the Attorney General detailing status or disposition of discrimination and whistleblower reprisal cases.
H.R. 2547, the Erroneous Payments Recovery Act of 2001. This Act would require certain executive agencies to carry out a cost-effective program for identifying any errors made in paying contractors and for recovering any amounts erroneously paid to contractors.
Regulations
The Counsel to the Inspector General is a member of the Agency's Rules Revision Committee that develops changes to Agency procedural regulations. During this reporting period, we continued our efforts to revise the Agency's regulations pertaining to changes mandated by the Freedom of Information Act (FOIA) and to clarify how FOIA requests to the Inspector General for OIG documents are processed. The proposed Regulations were published in the Federal Register on July 25, 2001. The Agency did not receive any comments. The final rule was published in the Federal Register on October 3, 2001.
Policy
We completed our work with the Agency's records officer to provide a draft OIG Records Disposition Authority to the National Archives Records Agency (NARA). The draft disposition authority was approved by NARA on June 6, 2001.
We reviewed the draft Guide for Conducting Qualitative Assessment Reviews of the Investigative Operations of Offices of Inspector General. This Guide was developed to ensure that an investigative program is in compliance with the standards adopted in the "Quality Standards for Investigations" as well as ensure that adequate internal safeguards and management procedures exist for those offices with law enforcement powers. After reviewing the Guide, we decided to participate in a 9-month pilot qualitative assessment review program for the investigative programs within the OIG community.
Standards
We provided comments on the revisions to the organizational independence criteria in the Government Auditing Standards. We commented that the Standards appropriately recognized that inspectors general appointed by the heads of designated Federal entities have organizational independence.
OMB Policy Document
We reviewed and commented on an initial OMB policy document regarding "Erroneous Payments" in Federal benefit programs. We noted our concern that some agency managers may use paragraph 3 of the Basic Principals -- Erroneous Payments Should be Kept to the Lowest Practical Level -- to justify erroneous payments that could have been avoided, and suggested that paragraph be redrafted in order to avoid this eventuality.
LIAISON ACTIVITIES
The Inspector General is to recommend policies for, and is to conduct, supervise, or coordinate relationships between the Agency and other Federal agencies, State and local governmental agencies, and nongovernmental entities. The Inspector General is to give particular regard to the activities of the Comptroller General of the United States, as head of GAO. Similarly, we encourage OIG staff members to participate in Agency programs and activities. OIG staff members are active in the inspector general community and agency activities.
Inspector General Community
The Inspector General is a member of the Executive Council on Integrity and Efficiency (ECIE), which consists primarily of the inspectors general at the Federal entities designated in the 1988 amendments to the IG Act. She participated in activities sponsored by the President's Council on Integrity and Efficiency (PCIE), which consists primarily of the Presidentially-appointed inspectors general. These included:
Being a member of an ECIE ad hoc committee addressing auditor independence;
Participating in a PCIE/ECIE committee addressing one of the strategic planning goals. The Strategic Framework, May 29, 2001, was adopted by the NLRB OIG.
Serving as Co-Chair of the committee drafting the PCIE/ECIE FY 2000 Annual Report. The report was completed and widely distributed in August 2001.
With the Assistant Inspector General for Audits, conducting a peer review of the OIG at the Federal Communications Commission. The report was issued on April 26, 2001.
The Counsel participated in the Council of Counsels to Inspectors General.
The Assistant Inspector General for Audits participated in the PCIE Results Act Group.
Agency Activities
OIG continues to be involved in the Agency's implementation of the Results Act. OIG submitted substantial comments on the Agency's FY 2000 Performance Report and FY 2002 Performance Plan. The Inspector General and Counsel also attended a strategic planning conference in June 2001 with other senior management officials. The retreat provided an opportunity to review and refine the Agency's goals and measurement system.
The Counsel is a member of the Government Paperwork Elimination Act (GPEA) Committee. This committee was formed to ensure that the Agency meets the GPEA's October 2003 deadline of providing a means for electronic transactions with the public as a substitute for paper. To date, the committee identified the transactions that may be accomplished electronically, established a timeline for meeting the October 2003 deadline, and began the process to develop electronic transaction forms.
General Accounting Office (GAO)
The IG Act states that each inspector general shall give particular regard to the activities of the Comptroller General of the United States with a view toward avoiding duplication and ensuring effective coordination and cooperation.
GAO has four ongoing efforts involving NLRB. One study is to determine the extent to which Federal agencies have contracted with companies that have violated Federal labor, environmental, or tax laws, including the nature and extent of such violations. The Chairman, House Subcommittee on Government Manage-ment, Information, and Technology, made this request on July 24, 2000. A report is expected in spring 2002.
The second study is to explore improvements to the offices of inspectors general that address overall effectiveness and enhancements to their independence. The Chairman, House Committee on Government Reform, made this request on March 5, 2001. The OIG provided input on June 7, 2001.
The third effort is a survey of Federal agencies' enterprise architecture efforts to gauge progress towards meeting Clinger-Cohen Act and OMB requirements and to identify successes. The Agency responded to the survey in July 2001. A report is expected in December 2001.
In August 2001, the Agency was notified that GAO had initiated a review of selected agencies, including NLRB, related to whether financial statement audit requirements should be expanded to include certain agencies that are not required to have annual financial statement audits under the Chief Financial Officers Act or other laws. The review will evaluate whether agencies are preparing financial statements and having them subjected to audit, the degree of effort necessary for these agencies to prepare annual audited financial statements, and the benefits derived from such audits.
INFORMATION REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished during this period are required by section 5(a) of the IG Act to be included in the semiannual reports. These are set forth below:
Section 5(a)
(1),(2),(7)
OIG identified significant problems, abuses or deficiencies relating to the administration of information systems security (see page 4). For the purpose of this section, we used the definition of significant as set forth in the Federal Managers' Financial Integrity Act.
(3)
Corrective action has been completed on all significant recommendations which were described in the previous semiannual reports.
(4)
No matters were referred to prosecutorial authorities. There were no prosecutions. There was one conviction.
(5)
No reports were made to the Chairman that information or assistance requested
by the Inspector General was unreasonably refused or not provided.
(6)
A listing by subject matter is located on page 20.
(8),(9)
Two audit reports were issued during this period; the reports had no recommendations on questioned costs or funds that could be put to better use. See Tables 1 and 2.
(10)
There are no audit reports issued before the commencement of the reporting period for which no management decision has been made by the end of the reporting period.
(11)
No significant revised management decisions were made during the reporting period.
(12)
There were no significant management decisions with which I am in disagreement.
AUDIT REPORTS BY SUBJECT MATTER
Report Title and Number
Questioned Costs
Unsupported Costs
Ineligible Costs
Funds To Be Put To Better Use
ADMINISTRATION
Audit of Case Activity Tracking System Security, OIG-AMR-33-01-02
0
0
0
0
Audit of Property Controls Over ADP Items, OIG-AMR-32-01-03
0
0
0
0
Table 1 -- REPORTS WITH QUESTIONED COSTS
Dollar Value
Number of Reports
Questioned Costs
Unsupported Costs
A. For which no management decision has been made by the commencement of the period
0
0
0
B. Which were issued during the reporting period
0
0
0
Subtotals (A+B)
0
0
0
C. For which a management decision was made during the reporting period
0
0
0
(i) Dollar value of disallowed costs
0
0
0
(ii) Dollar value of costs not disallowed
0
0
0
D. For which no management decision has been made by the end of the reporting period
0
0
0
Reports for which no management decision was made within six months of issuance
0
0
0
Table 2 -- REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
Number of Reports
Questioned Costs
A. For which no management decision has been made by the commencement of the period
0
0
B. Which were issued during the reporting period
0
0
Subtotals (A+B)
0
0
C. For which a management decision was made during the reporting period
0
0
(i) Dollar value of disallowed costs
0
0
(ii) Dollar value of costs not disallowed
0
0
D. For which no management decision has been made by the end of the reporting period
0
0
Reports for which no management decision was made within six months of issuance
0
0
Fraud Waste Abuse -
You can stop it!
Call the IG HOTLINE
800 736-2983
Or Write to the
Office of Inspector General
NLRB
1099 14th Street, NW
Washington, DC 20570